 Audit of NARA’s Internal
    Control Program


OIG Audit Report No. 13-01



   December 10, 2012
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 4

Objectives, Scope, Methodology .................................................................... 6

Audit Results................................................................................................... 7

Appendix A – Status of Prior Recommendations ......................................... 15

Appendix B – Acronyms and Abbreviations ................................................ 16

Appendix C – Management’s Response to the Report ................................. 17

Appendix D – Report Distribution List ........................................................ 18
                                                                     OIG Audit Report No. 13-01


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) performed an audit of NARA’s Internal Control Program (ICP). The Federal
Managers’ Financial Integrity Act (FMFIA) as well as the Office of Management and
Budget’s (OMB) Circular A-123, Management’s Responsibility of Internal Control
(Circular A-123), provide guidance for implementation of an ICP. These materials
require agency heads to conduct ongoing reviews of controls and to annually evaluate
and report on the systems of internal accounting and administrative control. The purpose
of this audit was to evaluate (1) NARA’s compliance with guidance contained in FMFIA
and Circular A-123, and the adequacy of the agency’s assurance statement, (2) NARA’s
progress towards development of a formalized and comprehensive ICP, and (3) the status
of open recommendations made in prior year reports.

Our initial assessment of the agency’s FY 2011 assurance statement, as conveyed in our
October 14, 2011 memorandum, was NARA’s statement underreported material risk
associated with Electronic Records Management. The agency has consistently
underreported material risks over the past five years for programs including Preservation
and Processing and has not accurately reflected the breadth of risks in NARA’s
Information Security Program. Without an effective ICP, the Archivist of the United
States’ (AOTUS) annual assurance statement to the President and the Congress may not
clearly reflect NARA’s current internal control environment, including risks.

Despite concurring with recommendations from prior reports issued by NARA’s OIG and
the Government Accountability Office (GAO) regarding an ICP 1, NARA has yet to fully
establish the program. Management has not implemented an ICP because of the (1)
complex nature of the program and lack of understanding of the benefits of the ICP, (2)
lack of attention to the ICP, and (3) lack of resources provided for the successful
implementation of the program. NARA has also not implemented five of the
recommendations identified in prior OIG reports on the ICP. 2 By not implementing the
program, NARA is vulnerable to a variety of risks that may not be foreseen or mitigated
and is not able to self-identify and appropriately manage significant weaknesses such as
those identified in prior and current audits performed by the OIG. Additionally, NARA
is not able to take advantage of the benefits that come with establishment of a well
defined and developed program such as (1) improved decision making, (2) risk
identification, management, and mitigation (3) opportunities for process improvement,
(4) effective use of budgeted resources, and (5) strategic planning.

We are making one recommendation which we believe, once implemented, will address
weaknesses cited in this review.

1
  Identified as enterprisewide risk management in GAO’s Report, National Archives and Records
Administration: Oversight and Management Improvements Initiated, but More Action Needed
(GAO-11-15).
2
  Recommendations from OIG 09-14 and OIG 10-19 have not been implemented by the agency.
                                           Page 3
                        National Archives and Records Administration
                                                             OIG Audit Report No. 13-01


Background

The Federal Managers’ Financial Integrity Act (FMFIA), Public Law 97-255, requires
each agency to establish controls that reasonably ensure: (1) obligations and costs comply
with applicable law, (2) assets are safeguarded against waste, loss, unauthorized use or
misappropriation, and (3) revenues and expenditures are properly recorded and accounted
for. In addition, the agency head must annually evaluate and report on the systems of
internal accounting and administrative control.

The Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control (Circular A-123), defines management’s
responsibility for internal control in Federal agencies. It provides guidance to Federal
managers on improving the accountability and effectiveness of Federal programs and
operations by establishing, assessing, correcting, and reporting on internal control. OMB
revised Circular A-123 in response to the Sarbanes-Oxley Act, effective in fiscal year
2006. This revision strengthened the requirements for management’s assessment of
internal control over financial reporting. The new requirements apply only to the 24
Chief Financial Officer Act agencies, thus exempting NARA from reporting pursuant to
Section 4 of the FMFIA. However, NARA is still required to report on internal controls
pursuant to Section 2 of FMFIA.

NARA Directive 114, Management Controls, establishes policy for improving
accountability and effectiveness of NARA programs and operations by establishing,
assessing, correcting, and reporting on management controls. NARA 114 defines
responsibilities; defines the types of reviews that could be considered internal control
assessments; identifies documentation that must be maintained in support of an internal
control evaluation, and addresses the development and maintenance of management
control plans. Among the responsibilities defined by this guidance, Office Heads are
required to identify and analyze risk, and the Performance and Accountability Office
(CP) is required to provide oversight, guidance, and assistance to NARA offices
concerning implementation of the NARA internal control program.

Interim Guidance NARA 160-1 describes FY 2012 requirements for reporting to the
Archivist on internal controls. This reporting must include the status of control
monitoring and testing activities, the status of recommendations resulting from audits,
management reviews, and contractor assessments; and information pertaining to risks
(such as current, or potential Material Weaknesses, Significant Deficiencies, or Control
Deficiencies).

Assurance statements and information relating to FMFIA Section 2, Section 4 (from
which NARA is exempt), and internal control over financial reporting should be provided
in a single FMFIA report section of the annual Performance and Accountability Report
(PAR) labeled “Management Assurances.” The section should include the annual
assurance statement, summary of material weaknesses and non-conformances, and
                                        Page 4
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-01


summary of corrective action plans. Furthermore, FMFIA requires the Archivist to
annually submit to the President and Congress (1) a statement on whether there is
reasonable assurance that the agency’s controls are achieving their intended objectives,
and (2) a report on material weaknesses in the agency’s controls.




                                        Page 5
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 13-01


Objectives, Scope, Methodology

The objectives of the audit were to evaluate (1) NARA’s compliance with guidance
contained in FMFIA and Circular A-123, and the adequacy of the agency’s assurance
statement, (2) NARA’s progress towards development of a formalized and
comprehensive Internal Control Program (ICP), and (3) the status of open
recommendations made in prior year reports. Specifically, we (1) conducted interviews
with appropriate personnel associated with development of NARA’s ICP and (2)
reviewed the status of open recommendations made in prior year reports. Also, to
facilitate the submission of NARA’s annual assurance statement, we performed a
preliminary review of the assurance statement in October 2011.

This audit was conducted in accordance with generally accepted government auditing
standards between October 2011 and September 2012. 3 These standards require we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




3
 The audit was delayed due to OIG staffing shortages. The auditor originally assigned this audit left the
agency and the audit was on hold until it was reassigned.
                                            Page 6
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 13-01


Audit Results

1. NARA has yet to establish an Internal Control Program.
Although Senior Management agreed to formalize NARA’s ICP in 2010, the program has
yet to be developed and fully implemented. This condition exists because management
has not made the program a priority, nor provided adequate resources to establish the
program. As a result, the lack of an ICP (1) leaves the agency vulnerable to a variety of
risks that may not be foreseen or mitigated and (2) does not allow the agency to self-
identify and appropriately manage or mitigate significant weaknesses such as those
identified in the Audit of the Management of Records at the Washington National
Records Center (WNRC) (OIG 12-02 and 12-05) and NARA’s Network Discovery and
Assessment Audit (OIG 12-11). 4 Also, without the program, the Archivist of the United
States’ (AOTUS) annual assurance statement to the President and the Congress may not
clearly reflect NARA’s current internal control environment. An ICP (1) will provide
more effective leadership, strategic direction, and accountability in fulfilling NARA’s
mission, meeting objectives, and establishing clear lines of responsibility for results, (2)
ensures adequate controls are in place to provide reasonable assurance that program
activities are operating efficiently and effectively; reliable and timely information is
obtained, maintained, recorded, reported, and used for decision-making; assets are
safeguarded, and that programs are managed with integrity and in compliance with
applicable laws and regulations, and (3) enables NARA to better prevent, detect, and
mitigate instances of waste, fraud, abuse, and mismanagement.

According to Circular A-123, management is responsible for establishing and
maintaining internal control to achieve the objectives of effective and efficient
operations, reliable financial reporting, and compliance with applicable laws and
regulations. Additionally, the Government Accountability Office (GAO) “Standards for
Internal Control in the Federal Government” provides the underlying rationale for an
ICP. The Standards state, “A key factor in helping achieve better ways to achieve
agencies’ missions and program results is to implement appropriate internal controls.
Effective internal controls also help in managing change to cope with shifting
environments and evolving demands and priorities.”




4
  Audit Reports OIG 12-02 and 12-05 disclosed management controls were either missing, ineffective or
inadequate to appropriately safeguard, secure, manage and handle records at WNRC. OIG 12-11 identified
a lack of strategic planning with regard to the redundancy and resiliency and overall design of NARA’s
network. Internal control reviews, including risk assessments, prior to these audits could have identified
some of the significant deficiencies identified in the OIG reports.
                                            Page 7
                         National Archives and Records Administration
                                                              OIG Audit Report No. 13-01


Prior Reports on NARA’s lack of an Internal Control Program
In 2008, the OIG conducted an Evaluation of NARA’s Management Control Program
(OIG 08-06). We identified weaknesses which were the result of the lack of familiarity
with NARA 114, Management Controls, an incomplete understanding of internal
controls, and management control plans which were improperly or too narrowly scoped.
The 2009 report, Evaluation of NARA’s FY2008 Management Control Program (OIG 09-
14), revealed at the end of the FMFIA reporting period, September 30, 2009, (1)
management had not yet completed action to close recommendations contained in the
prior year’s audit report; and (2) two program offices did not adequately monitor internal
controls. Our last audit in 2010, Audit of NARA’s Internal Control Program (OIG 10-
19), found NARA (1) had not implemented any of the prior year recommendations, (2)
had not fully complied with the requirements of Circular A-123 as there was no
formalized ICP, and (3) would not be in full compliance with Circular A-123 until it
identified critical functions, control and monitoring activities, and developed a formal
risk management process.

After issuance of the OIG’s report in 2010, GAO reported similar concerns regarding an
ICP. GAO’s report, National Archives and Records Administration: Oversight and
Management Improvements Initiated, but More Action Needed (GAO-11-15), identified
NARA had not established an enterprise risk management (ERM) capability, reducing its
ability to anticipate future challenges and avoid potential crises. GAO recommended the
AOTUS develop and assign responsibility and resources for an enterprisewide risk
management capability that allows it to monitor its internal and external environments
continuously and systematically to ensure NARA’s senior staff and decision makers can
appropriately and quickly assess threats and vulnerabilities stemming from enterprise
risks. As stated in the GAO report, without an effective program of risk assessment and
internal control, management may have less assurance that it is using organizational
resources effectively and efficiently, or that agency assets and operations are protected.
The report further noted as called for by the Standards for Internal Control in the Federal
Government, agencies should continuously and systematically monitor their internal and
external environments to anticipate future challenges and avoid potential crises.

NARA’s management concurred with all of the recommendations in the prior OIG
reports on Internal Control. Specifically, for the 2010 report, they agreed to formalize the
ICP to include the five standards for internal control: (1) control environment, (2) risk
assessment, (3) control activities, (4) information and communication, and (5)
monitoring. The Action Plan for the report indicated a completion date of May 2011 for
the ICP. In response to the report from GAO, NARA committed to roll out an enterprise-
wide internal controls program that uses risk assessment as an integral part of managing
and monitoring internal controls, (2) embed an awareness of risk factors throughout the
organization as part of an ongoing, repetitive process, and (3) assign a NARA Risk
Officer to manage the process, who will raise risks identified to the Leadership Guidance
Team (LGT) or similar executive leadership group.



                                         Page 8
                      National Archives and Records Administration
                                                                      OIG Audit Report No. 13-01


Performance and Accountability Office and the Internal Control Program Project Plan
Since issuance of the last OIG and GAO reports, NARA has made minimal progress
towards establishing an ICP. NARA’s internal control practices have fallen behind as
they have not kept pace with government issued directives and other federal agencies.
Specifically, while CP has taken actions to improve NARA’s ICP, actions to fully
implement recommendations from the prior OIG and GAO reports are needed (see
Appendix A – Status of Prior Recommendations), including development and full
implementation of the ICP. CP’s Management Control Liaison stated the other
remaining open recommendations will be resolved upon the revision of NARA 114,
Management Controls, which cannot be completely revised until NARA’s formal ICP is
fully developed.

In 2010, CP developed a project plan to address the areas in which NARA was not
compliant with Circular A-123. Although the plan was revised in 2012 (See Table 1 –
Status of ICP Project Plan), it does not clearly outline all of the key activities required for
the ICP to be compliant with Circular A-123 and fully operational.

The current approach for implementing the ICP is to roll out the program at one time for
all programs and functions within the agency, which could be a potential problem.
According to McKinsey & Company’s report, Strengthening Risk Management in the US
Public Sector, government agencies should roll out new risk-management approaches
one process or area at a time. There are several advantages to this approach including,
(1) convincing the broader enterprise that risk management need not be a bottleneck and
can be a source for positive improvement and (2) early efforts to improve risk
management will lead to lessons that can be applied in subsequent efforts.

In August 2012 our review of the project plan indicated many of the activities have not
been completed or started. Some are scheduled for completion by the end of FY 2012,
including identifying existing programs and functions; and developing criteria to
determine criticality and risk of functions. The Director of CP indicated the remaining
activities will be completed over a three year span with the ICP fully implemented by the
end of FY 2015 5, but agency officials have not been involved in the process to formally
acknowledge this plan.




5
 Based on review the ICP will only be fully implemented by the end of FY 2015 if departmental and
additional CP resources are available.
                                           Page 9
                        National Archives and Records Administration
                                                                            OIG Audit Report No. 13-01


Table 1: Status of Internal Control Program Project Plan (provided by CP)
                                                                     Expected Date          Status as of
                              Task
                                                                     of Completion        September 2012
Populate ICP database with Program, Program Owner,
                                                                      Complete by
Function, Function Owner, Open Recommendations and                                           Complete
                                                                      July 31, 2012
Performance Measures for each office
Develop criteria/questions for determining criticality (high or       Complete by
                                                                                             Complete 6
low) and risk (high/med/low) for each function                        July 31, 2012
Vet populated database with offices – ask for program and
function owner names where missing, ask for offices to               September 2012          Complete 5
review program and function alignment one last time
Offices use criteria/questions to rank the criticality and risk of
                                                                     September 2012         In Progress
each function
Processes, SOPs/IOPs, and Key Performance Indicators (KPI)           Starts October 1,
internal to each office are added to the ICP database (making         2012 (ongoing         In Progress -
it more comprehensive and robust) on the basis of function            throughout FY           Ongoing
criticality and risk                                                       2013)
Assurance Statement/Internal Control Reporting to be based           Starts October 1,
on and reflective of each offices Program and Function                2012 (ongoing
                                                                                              Ongoing
hierarchy. Consistently structured reporting from quarter to          throughout FY
quarter and year to year                                                   2013)
FY13 Internal Control Test Plan developed around high                 Tests plans for         Test to be
criticality, high risk functions                                         FY 2013         developed based on
                                                                       developed by         results of risk
                                                                     October 31, 2012      questionnaires

The approach outlined by CP for implementing the ICP will result in a sufficient
program; however it cannot be brought to fruition unless there is more management
involvement and additional resources provided. Many of the tasks included in the project
plan have not been completed because of the (1) complex nature of the program and
management’s lack of understanding of the importance of an ICP, (2) lack of attention
and commitment by Senior Management, and (3) lack of resources provided for the
successful implementation of the program.

Complex nature of the program and lack of understanding
Implementing an ICP is a difficult challenge because most NARA stakeholders (i.e.
Senior Management, Program Owners, and Function Owners) do not have a basic
understanding of (1) risk management principles, (2) the purpose of the ICP, and (3) the
benefits to the agency of a risk management approach. As a result, managers do not
adequately or consistently monitor controls associated with their programs or understand
the risks to their programs and how to mitigate those risks. It will remain a challenge
unless management communicates its commitment to the program and provides training
to all stakeholders involved in the process. Currently, there is a lack of communication
(e.g. Risk Management Policy) (1) of NARA’s commitment to risk management and (2)
to define key principles, roles, responsibilities processes, and common terminology.

6
  The tasks for Information Services need to be redone due to the recent organizational restructure and
rewrite of NARA 101. Additionally, the Office of Innovation needs to be completed because it was only
recently established and functional statements have not been finalized.

                                              Page 10
                           National Archives and Records Administration
                                                            OIG Audit Report No. 13-01


According to a report by the IBM Center for The Business of Government, Managing
Risk in Government: An Introduction to Enterprise Risk Management, “educating a
workforce unfamiliar with enterprise risk management terminology and concepts is a key
issue for leading enterprise risk management activities.” While CP recognizes the need, a
training plan has not been developed or fully implemented. An effective training and
education plan to equip NARA’s stakeholders with the knowledge and information
needed will not only apply risk management to their day-to-day jobs, but will help
champion NARA’s effort to develop a formalized risk-based ICP.

Lack of attention and commitment
When CP originally started working on the ICP there were competing priorities,
including the Transformation effort, which the one staff person from CP was originally
involved in along with NARA’s Management Team. In order to have a successful ICP,
NARA’s Management Team can no longer overlook the program as more input and
oversight is required. As noted in the Business Transformation Plan (issued May 29,
2011), NARA committed to establishing an ERM capability and a Risk Officer to analyze
and manage risks and opportunities. NARA has yet to identify a Risk Officer, but in
response to GAO’s recommendation, in 2011 NARA established the Management
Control Oversight Council (MCOC). The MCOC is comprised of all members of
NARA’s Management Team, with the Chief Operating Officer (COO) serving as the
chair. Although the MCOC was created to provide leadership and oversight necessary
for effective implementation of NARA’s ICP, they have not met their purpose. Since the
creation of the MCOC, the quarterly meetings solely focused on reviewing action plans
for the agency’s material weaknesses and risks for FMFIA reporting purposes. Based on
our review of the minutes from the meetings, (1) CP is not actively involved in the
meetings to discuss the ICP, (2) no new weaknesses or risks have been identified, and (3)
no directives have been issued regarding implementation of the ICP.

The COO indicated Senior Management is very committed to seeing the ICP developed.
He also stated he (1) sees the ICP as an opportunity for NARA managers to take
ownership of problems, (2) would like to avoid the identification of material weaknesses
only by the OIG, and (3) would like to see managers identify problems earlier. He is
hopeful the ICP planned by CP will assist in the process. Based on the current internal
control environment, the outcomes the COO would like to see from an ICP would most
likely not be possible. Until Senior Management formally acknowledges and puts in
place the necessary resources, the program will continue to under deliver. Additionally,
absent of having an ICP, audits performed by the OIG or oversight agencies will continue
to be the sole source for systematically identifying risks.

The OIG inquired with Senior Management about (1) how far along NARA was in
establishing an ERM capability and (2) what was limiting an ERM capability from being
implemented. Management did not provide a definitive answer or specific details as to
the state of the ERM and any limitations. Additionally, the OIG inquired about
identifying a Risk Officer for the agency. The COO indicated his position will now serve
as the Risk Officer and NARA 101 will be updated to reflect this change. This decision
does not show management’s commitment to ERM or emphasize the importance of it.
                                        Page 11
                     National Archives and Records Administration
                                                               OIG Audit Report No. 13-01


Currently, there are eight offices that report to the COO position including (1) Federal
Register, (2) Agency Services, (3) Research Services, (4) Information Services, (5)
Business Support Services, (6) Legislative Archives, Presidential Libraries, and Museum
Services, (7) Corporate Records Management, and (8) CP. According to a McKinsey &
Company’s report, Strengthening Risk Management in the US Public Sector, public
sector institutions should establish a dedicated risk-management organization that resides
in a prominent place in the organization. The Chief Risk Officer should either be at the
same level as the COO or Chief Financial Officer (CFO), or at most one level below. It
further states risk personnel should have deep knowledge of both risk management and
the institution’s business. NARA would benefit by selecting an individual that (1) could
devote majority of their time to effectively leading the implementation and management
of an ICP, (2) possesses risk management skills, and (3) possesses the capability to build
a risk-aware culture agency wide.

Lack of resources
Budget resources to hire staff and develop an ICP system have not been made available
to support the implementation of the ICP. Currently, only one CP employee is assigned
to implement the ICP. The program is too large and complex for one person to
implement the program across the agency. The COO originally indicated to the OIG no
additional staffing resources were available, but since then the hiring of one additional
staff member has been approved. The ICP for a similar size agency, the Library of
Congress, is administered in the Library’s Strategic Planning Office of the Chief
Financial Officer. The Library has one ICP Administrator and 11 ICP Coordinators,
which are the ICP administrators for every service unit at the Library.

According to a McKinsey & Company report, Strengthening Risk Management in the US
Public Sector, public sector institutions should push for legislation that requires the
appointment of a Chief Risk Officer (CRO) and the formation of a risk-management
department, with specific details about the roles, responsibilities, and qualifications of
risk-management staff. The report further stated the risk organization’s structure should
mirror the agency’s structure, with dedicated risk personnel for each focus area. The
exact size of the risk organization will vary by agency, but it must at least be large
enough so that it can dedicate one or two people to each high-priority area. While the
one additional resource will be beneficial to the ICP, program implementation and
management will continue to be a challenge, and program benefits will be under realized,
until an adequate amount of resources are employed to support the program.

CP was not given the funding to procure software and is now internally developing a
Microsoft Access database to support automation of the internal control/risk management
program. The database will not (1) have the capability to adequately support a robust
ICP, (2) append information to support decisions about the criticality of functions,
inherent and residual risks, and the results of testing and monitoring activities, (3) support
automatic notification of events based on a hierarchical structure, and (4) accommodate
automated alerts for significant events such as when a new function is added and the
criticality of a program/function is changed by this event. New software to support the
ICP (estimated to cost $200,000 initially and $12,000 annually for maintenance) would
                                         Page 12
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-01


(1) automate the reporting and sharing of information concerning functions, risks,
controls and performance data across the agency and (2) allow for the assignment and
tracking of risks and recommendations. In our opinion, the cost of the software is
minimal in comparison to the intangible benefits that would be gained by the agency.

Performance and Accountability Office and Office of Strategy
Currently there are two different offices, CP and Division of Strategy, performing similar
responsibilities as it relates to internal controls. According to NARA 101, NARA
Organization and Delegation of Authority, CP is delegated the authority to coordinate
NARA's implementation of OMB Circular A-123, the NARA internal management
control review system, independent internal testing, enterprise risk management, and the
Federal Managers' Financial Integrity Act. CP also serves as NARA’s Risk Officer,
overseeing the agency’s ERM program. The Strategy Division (within the Strategy and
Communications Office) is responsible for coordinating and facilitating NARA issues
management and strategic policy analysis activities as well as engaging NARA staff and
stakeholders to address the agency's goals, issues and opportunities.

The Strategy’s Division responsibilities appear to be parallel and in direct conflict with
the authority delegated to CP as they are related to the ICP. A part of administering an
ICP is identifying risk, quantifying risk exposure, assigning risk ownership, determining
mitigation strategy, and tracking and managing mitigation to closure. CP indicated there
has been no formal coordination or sharing of information between CP and the Strategy
Division regarding risks and issues management. The OIG attempted, but was unable to
discuss the Strategy’s Division role in identifying agency risks for the Strategic Plan and
whether there was any overlap with the ICP work performed by CP. The Strategy
Division cannot coordinate and facilitate issues management if it is not in communication
with the office in charge of implementing the ICP. It is also not beneficial for these two
offices to be working in silos and not effectively communicating.




                                        Page 13
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-01


Recommendation

The Archivist of the United States should demonstrate a commitment to the development,
implementation, and operation of NARA’s ICP by ensuring:

   a) The MCOC becomes more involved in the decision making and implementation
      plan for the ICP. Additionally, periodic reports (at least quarterly) must be
      presented to the MCOC to review the progress of the ICP.
   b) All risk management activities (identifying controls, risks, tactical risks, issues
      management, etc.) are coordinated with CP, who is delegated the authority of
      overseeing the agency’s ERM program.
   c) Revisions are made to the existing project plan outlining concise, detailed tasks
      required for full implementation of the ICP (from current status to full
      implementation).
   d) Resources are employed to develop and implement the ICP, including but not
      limited to a Chief Risk Officer, additional employees or contractors, and the
      purchase of appropriate ICP software.
   e) Risk management responsibilities are included in the performance plans for
      program and function owners.
   f) Prior recommendations from previous OIG and GAO reports are closed.
   g) A Risk Management Policy is created to communicate NARA’s commitment to
      enterprise risk management.
   h) Procedures are documented that clearly document the ICP, including outlining a
      process for tracking issues and corrective actions identified.
   i) A training plan is developed that encompasses educating the agency on risks and
      internal control. Additionally, training is provided to all individuals responsible
      for executing the ICP, including program owners, function owners, and MCOC
      members.

Management Response

Management concurred with the recommendation.




                                        Page 14
                     National Archives and Records Administration
                                                                       OIG Audit Report No. 13-01


Appendix A – Status of Prior Recommendations

The chart below identifies audit recommendations from prior OIG and GAO reports
regarding NARA’s Internal Control Program.
                                  Recommendation 7                                            Status
Director of Policy and Planning should work with offices in general, and
                                                                                              Partially
management control liaisons in particular, to: (1) stress the importance of
                                                                                           implemented
performing internal control assessments of critical areas in accordance with
                                                                                            (only item 3
management control plans and NARA 114; (2) ensure the results of the
                                                                                                 is
assessments are included in the assurance statements, and; (3) revise, as
                                                                                          implemented)
necessary, the lists of “critical functions” to be reviewed. (OIG 09-14)
Assistant Archivist for Administrative Services should ensure Annual
Information Security Self Inspection results are reviewed in a timely manner,
instances of non-compliance are identified, and corrective actions are monitored;
and self inspections are reviewed and documented in accordance with guidance
                                                                                           Implemented
concerning self-assessments contained in NARA 114. If a formal process as
referred to by the Information Security Officer cannot be completed in time to
facilitate the review of FY 2009 information security self inspections an alternate
means of reviewing the checklists should be developed. (OIG 09-14)
AOTUS should ensure NARA policy on internal controls (such as NARA 114) is
revised to specifically address the process by which findings are evaluated and                Not
categorized; criteria used in the decision making process, and; documentation              implemented
necessary to support such conclusions. (OIG 09-14)
Assistant Archivist for Regional Records Services should ensure all program
                                                                                               Not
findings, regardless of whether they are considered major or minor, are tracked to
                                                                                           implemented
resolution and supported by adequate documentation. (OIG 09-14)
AOTUS should demonstrate a commitment to the internal control program by
establishing centralized responsibility within NARA’s existing organizational
structure or within the proposed Performance & Accountability Office (as                   Implemented
indicated in the Proposed NARA Organization Report from the Archivist’s Task
Force on Agency Transformation). (OIG 10-19)
AOTUS should formalize the Internal Control program to include the five
standards for internal control: (1) control environment, (2) risk assessment, (3)              Not
control activities, (4) information and communication, and (5) monitoring. (OIG            implemented
10-19)
AOTUS should consider establishing a Senior Management Council to provide
oversight and additional accountability for the Internal Control Program. (OIG             Implemented
10-19)
AOTUS should ensure that NARA’s senior staff and decision makers can
appropriately and quickly assess threats and vulnerabilities stemming from
                                                                                               Not
enterprise risks, develop and assign responsibility and resources for an
                                                                                           implemented
enterprisewide risk management capability that allows it to monitor its internal
and external environments continuously and systematically. (GAO-11-15)

7
 After the Transformation effort in 2011, office names and symbols subsequently changed to reflect the
current reorganization. However, the previous office names are used in the chart above to reflect the
historical names of the offices recommendations were addressed to in previous audit reports.
                                            Page 15
                         National Archives and Records Administration
                                                      OIG Audit Report No. 13-01


Appendix B – Acronyms and Abbreviations

AOTUS            Archivist of the United States
COO              Chief Operating Officer
CFO              Chief Financial Officer
CP               Performance and Accountability Office
CRO              Chief Risk Officer
ERM              Enterprise Risk Management
FMFIA            Federal Managers’ Financial Integrity Act
GAO              Government Accountability Office
ICP              Internal Control Program
MCOC             Management Control Oversight Council
NARA             National Archives and Records Administration
OIG              Office of Inspector General
OMB              Office of Management and Budget
PAR              Performance and Accountability Report
Circular A-123   Circular A-123, Management’s Responsibility for Internal Control
WNRC             Washington National Records Center




                                    Page 16
                 National Archives and Records Administration
                                                 OIG Audit Report No. 13-01


Appendix C – Management’s Response to the Report




                               Page 17
            National Archives and Records Administration
                                                        OIG Audit Report No. 13-01


Appendix D – Report Distribution List

Archivist of the United States (N)
Deputy Archivist of the United States (ND)
Chief Operating Officer (C)
Executive of Agency Services (A)
Chief Financial Officer (BC)
Director, Performance and Accountability (CP)
Management Control Liaison, Performance and Accountability (CP)




                                      Page 18
                   National Archives and Records Administration
